<html>
<title> - LESSONS LEARNED FROM THE 2004 OVERSEAS CENSUS TEST</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





           LESSONS LEARNED FROM THE 2004 OVERSEAS CENSUS TEST

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON TECHNOLOGY, INFORMATION
                POLICY, INTERGOVERNMENTAL RELATIONS AND
                               THE CENSUS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 14, 2004

                               __________

                           Serial No. 108-266

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
98-351                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
TODD RUSSELL PLATTS, Pennsylvania    JOHN F. TIERNEY, Massachusetts
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
EDWARD L. SCHROCK, Virginia          STEPHEN F. LYNCH, Massachusetts
JOHN J. DUNCAN, Jr., Tennessee       CHRIS VAN HOLLEN, Maryland
NATHAN DEAL, Georgia                 LINDA T. SANCHEZ, California
CANDICE S. MILLER, Michigan          C.A. ``DUTCH'' RUPPERSBERGER, 
TIM MURPHY, Pennsylvania                 Maryland
MICHAEL R. TURNER, Ohio              ELEANOR HOLMES NORTON, District of 
JOHN R. CARTER, Texas                    Columbia
MARSHA BLACKBURN, Tennessee          JIM COOPER, Tennessee
PATRICK J. TIBERI, Ohio              BETTY McCOLLUM, Minnesota
KATHERINE HARRIS, Florida                        ------
------ ------                        BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Technology, Information Policy, Intergovernmental 
                        Relations and the Census

                   ADAM H. PUTNAM, Florida, Chairman
CANDICE S. MILLER, Michigan          WM. LACY CLAY, Missouri
DOUG OSE, California                 STEPHEN F. LYNCH, Massachusetts
TIM MURPHY, Pennsylvania             BETTY McCOLLUM, Minnesota
MICHAEL R. TURNER, Ohio

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                        Bob Dix, Staff Director
            Ursula Wojciechowski, Professional Staff Member
                         Juliana French, Clerk
           David McMillen, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 14, 2004...............................     1
Statement of:
    Gribble, Leigh, vice chair, American Business Council of the 
      Gulf Countries, on behalf of Census 2010 Coalition; Lucy 
      Stensland Laederich, U.S. liaison, Federation of American 
      Women's Club Overseas, Inc.; and Clark H. Bensen, 
      consultant and publisher, Polidata Co......................    41
    Kincannon, Charles Louis, Director, U.S. Census Bureau; and 
      Patricia Dalton, U.S. Government Accountability Office.....     7
Letters, statements, etc., submitted for the record by:
    Bensen, Clark H., consultant and publisher, Polidata Co., 
      prepared statement of......................................    59
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................    35
    Dalton, Patricia, U.S. Government Accountability Office, 
      prepared statement of......................................    16
    Gribble, Leigh, vice chair, American Business Council of the 
      Gulf Countries, on behalf of Census 2010 Coalition, 
      prepared statement of......................................    46
    Kincannon, Charles Louis, Director, U.S. Census Bureau, 
      prepared statement of......................................    10
    Laederich, Lucy Stensland, U.S. liaison, Federation of 
      American Women's Club Overseas, Inc., prepared statement of    53
    Putnam, Hon. Adam H., a Representative in Congress from the 
      State of Florida, prepared statement of....................     4

 
           LESSONS LEARNED FROM THE 2004 OVERSEAS CENSUS TEST

                              ----------                              


                      TUESDAY, SEPTEMBER 14, 2004

                  House of Representatives,
   Subcommittee on Technology, Information Policy, 
        Intergovernmental Relations and the Census,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:05 p.m., in 
room 2154, Rayburn House Office Building, Hon. Adam Putnam 
(chairman of the subcommittee) presiding.
    Present: Representatives Putnam and Clay.
    Also present: Representative Maloney.
    Staff present: Bob Dix, staff director; John Hambel, senior 
counsel; Ursula Wojciechowski, professional staff member; 
Colleen Smith, fellow; Juliana French, clerk; David McMillen, 
minority professional staff member; and Jean Gosa, minority 
assistant clerk.
    Mr. Putnam. Quorum being present, this hearing of the 
Subcommittee on Technology, Information Policy, 
Intergovernmental Relations and the Census will come to order. 
Good afternoon, everyone, and welcome to the subcommittee's 
hearing entitled, ``Lessons Learned from the 2004 Overseas 
Census Test.'' We are here today to examine the results of that 
test and to review the GAO's report entitled, ``2010 Census: 
Counting Americans Overseas as Part of the Decennial Census 
Would Not Be Cost-Effective.''
    Having oversight of all census matters, this subcommittee 
recognizes the importance of the lessons learned in the 
preliminary findings from the ongoing evaluation by the Census 
Bureau regarding this test. We also recognize the importance of 
hearing the concerns from stakeholders with relevant 
perspectives on the test and its challenges.
    The U.S. Constitution requires a count of its population 
every 10 years. The count determines the number of apportioned 
seats that a State gets in the House of Representatives and is 
used to update and revise voting districts, and the data is 
used to determine eligibility distribution of Federal grant 
dollars to State and local governments.
    Since the first decennial census in 1790, the concept of 
usual residence has been used. Usual residence generally means 
that people are counted where they live most of the time and 
not necessarily the same as voting residence or legal 
residence.
    Historically, the Census Bureau has focused its efforts on 
counting everyone in every household living in the United 
States regardless of age or citizenship status. They have 
developed processes, such as the Nonresponse Followup, and 
tools, including the MAF/TIGER, over time that have continued 
to improve the accuracy of the decennial census. The Bureau has 
counted those Americans who are deployed or assigned overseas 
in serving this Nation in recent censuses for purposes of 
apportionment. They have included members of the military, 
Federal civilian employees and their dependents by using 
administrative records, but they have never included all 
American citizens residing abroad in a decennial census for 
purposes of apportionment or redistricting. The magnitude of 
known obstacles has been a determinant factor of the 
feasibility of such an effort.
    Many private American citizens living abroad have long 
recognized the importance of participating in the census as 
part of their civic duty. Some pay taxes, vote, may have 
families back home, while others may be overseas for only a 
short period of time or, I might add, are overseas for a reason 
and don't want to be found. Although it is estimated that up to 
4 million American citizens may reside abroad, the precise 
number is unknown. There are currently no administrative 
records, processes or any acceptable tested methodology for 
providing an independent measure for the coverage of this 
population. Estimations from the U.S. State Department's 1999 
records and the U.S. Department of Defense's 2000 records 
suggest there are approximately 4.1 million, but there is no 
calculation as to how many households the Census Bureau would 
have to count.
    Congress and the Census Bureau have been responsive to the 
stakeholder groups of American citizens living abroad overall. 
Congress has held hearings in the past to hear from 
stakeholders on this issue. Through its role on oversight and 
appropriations, Congress has worked with the Census Bureau to 
help facilitate and fund the 2004 overseas census test. This 
subcommittee enlisted the help of the Government Accountability 
Office in monitoring the work of the Census Bureau as it 
undertook this unprecedented effort to determine if it was 
feasible to include overseas Americans in the decennial census.
    Census Bureau estimates it will have spent $7.8 million 
over 3 years for this test. It involved enumerating the unknown 
universe of American citizens living in France, Mexico and 
Kuwait from February to July 2004. The test was carried out on 
schedule and consistent with its research design. However, the 
response rate in this test was very poor. Just over 5,000 
questionnaires were returned, most via the Internet. Because of 
this low response level, the cost for obtaining these 
questionnaires was extremely high. GAO estimates it cost 
approximately $1,500 per response.
    In this hearing we will receive testimony as to the results 
of the tests and the challenges that exist in enumerating the 
overseas population. We have two distinguished panels of 
witnesses today. The first panel, we welcome the Director of 
the Census Bureau and the Director of Strategic Issues at the 
Government Accountability Office. I am eager to hear their 
expert insight into the 2004 overseas census test.
    Our second panel is comprised of three census stakeholders. 
I would like to thank the first two for traveling so far to be 
with us today from Kuwait and France respectively. They 
represent American citizens living abroad who have worked to 
make the test happen. I look forward to hearing their 
viewpoint. Our final witness represents the data user 
community. As a redistricting analyst, he brings a valuable 
perspective into the discussion of the feasibility of the 
issue.
    I eagerly look forward to the expert testimony these 
distinguished panel of leaders will provide today. At this time 
we would like to remind everyone that today's hearing can be 
viewed for those living abroad--can be viewed live via WebCast 
by going to reform.house.gov and clicking on the link under 
live committee broadcasts.
    We will await the arrival of other committee members for 
their opening statements and move right into witnesses' 
testimony. Our first panel are experienced witnesses. You 
understand the light system. You will be recognized to 
summarize your written remarks in 5 minutes, and we will then 
proceed to questions and answers.
    [The prepared statement of Hon. Adam H. Putnam follows:]

    [GRAPHIC] [TIFF OMITTED] T8351.001
    
    [GRAPHIC] [TIFF OMITTED] T8351.002
    
    [GRAPHIC] [TIFF OMITTED] T8351.003
    
    Mr. Putnam. At this time, I would ask you to rise, please, 
for the administration of the oath.
    [Witnesses sworn.]
    Mr. Putnam. All the witnesses have responded in the 
affirmative, and we will begin with our Census Bureau Director. 
We are honored to have with us today the Director of the Census 
Bureau, Mr. Charles Louis Kincannon. Mr. Kincannon began his 
career as a statistician at the U.S. Census Bureau in 1963. He 
held positions of increasing responsibility in the economic, 
demographic and administrative areas of the Bureau. He left 
during the Ford administration to join the staff of the Office 
of Management and Budget where he worked on statistical and 
regulatory policy.
    Throughout his time with the Federal Government, Mr. 
Kincannon received a number of awards recognizing his work, 
including the Presidential-Rank Award of Meritorious Service 
and the Department of Commerce Gold Medal.
    In 1992, Mr. Kincannon was appointed as the first chief 
statistician in the Organization of Economic Cooperation and 
Development. He returned to the United States in 2000, was 
nominated by President Bush and confirmed by the Senate 
unanimously in March 2002 to direct the Census Bureau. That may 
have been the last unanimous vote the Senate cast.
    We welcome you to the subcommittee and recognize you for 
your testimony.

 STATEMENTS OF CHARLES LOUIS KINCANNON, DIRECTOR, U.S. CENSUS 
  BUREAU; AND PATRICIA DALTON, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Kincannon. Thank you, Mr. Chairman. Good afternoon. And 
on behalf of the Census Bureau, I want to thank you and the 
subcommittee for giving us the opportunity to share our 
experience and perspectives from the 2004 overseas enumeration 
test. The Census Bureau's objectives for the 2004 overseas test 
were to learn whether we could locate Americans living in the 
three test countries, France, Kuwait and Mexico, and whether 
Americans would participate and return the forms via Internet 
or direct mail. These objectives may seem simple, but they are 
important. The success of the decennial census stateside 
depends on the Census Bureau's ability to obtain these 
objectives with high standards of measurable quality.
    In conducting the decennial census, the Census Bureau faces 
the task of finding every person living in America every 10 
years. This task is daunting, but inspires at the same time our 
best hopes, our best ideas and our best efforts. The civic 
ritual of the census is almost as old as our Nation itself, and 
its fundamental purpose is one of the few specific government 
responsibilities mentioned in the Constitution. This mandate 
gives life to the promise of fair representation, and it is an 
affirmation of the great promise made on behalf of this Nation 
to all generations speaking of ``We the people.''
    It's easy to lose sight of the real goals of the census as 
difficulties and controversies arise. The stakes are quite 
high. And with each generation and each succeeding census, we 
find ourselves again asking the critical question, who counts 
in the census?
    The 2004 overseas test was designed to determine the 
feasibility of conducting a census overseas. The Census Bureau 
conducted this test at a cost of approximately $7.8 million 
over 3 years. We chose to conduct this test in France, Kuwait 
and Mexico because these countries are in different parts of 
the world, and each has a significant population of U.S. 
citizens and residents.
    The Census Bureau finished data collection on July 2, 2004. 
Since that point, we have been engaged in data processing and 
tabulation, including quality assurance tests preparatory to 
evaluation efforts. While we will not have formal results and 
evaluations until next spring, I'm here to share some of the 
early indications of the 2004 overseas test.
    One of the most important criteria of the decennial census 
is the response rate. We cannot accurately calculate a response 
rate for this test because we do not have accurate estimates of 
the number of Americans living in the three test countries. 
However, we believe the response is low by any standard one 
might choose. From France we received approximately 3,100 
questionnaires. From Kuwait we received approximately 300. And 
from Mexico we received approximately 2,000, 35 of which were 
in Spanish. The initial reaction to the anecdotal evidence 
supplied by stakeholder groups indicates that many Americans 
living abroad in those countries either did not know about the 
test or understand its purpose.
    We had printed over 600,000 questionnaires to make sure we 
had enough for those tests, and this number was partly based on 
estimates from a number of sources. In France, for instance, we 
have estimates ranging from about 29,000 to over 112,000 
Americans in residence. These results suggest that the Census 
Bureau cannot conduct a decennial census abroad as done 
stateside with any degree of measurable certainty.
    There are several key distinctions between the decennial 
census as collected in America and counting Americans overseas. 
The first distinction is that the decennial census collected in 
the United States is mandatory, and the purpose can be clearly 
communicated. It is much easier to achieve participation 
stateside and persuade households to answer because we can 
communicate the benefits of the census data for every 
neighborhood and community.
    The second distinction is the existence of the Master 
Address and mapping system. We talk about it at the Census 
Bureau as MAF/TIGER. It is literally the road map of the United 
States and every community in it. We have no such resource, 
maps or address lists, that explain how to reach every American 
living abroad. In short, we don't know where to look for every 
American living abroad by the method we use in the States.
    Another related distinction is the lack of a field 
infrastructure to do nonresponse followup. In the United States 
we hired over 800,000 field workers to do the field work in the 
2000 census. To complement this infrastructure, we had a 
massive campaign of public relations, and we would have 
difficulty in repeating these characteristics and strengths 
overseas.
    We have reliable estimates of the U.S. population and its 
demographic composition. These enable us to evaluate the 
quality and coverage accuracy of the decennial census. We don't 
have these data for other countries. These distinctions are 
very important to the success of the decennial census.
    In closing, the Census Bureau has determined that taking a 
census overseas would present unique difficulties, difficulties 
that cannot be resolved by the methods and tools that the 
Census Bureau uses to conduct the census stateside. This 
indicates that without the capabilities to meet high standards 
of measurable quality, we would be unable to provide data 
likely to fulfill the purpose for which the decennial census is 
collected; that is, apportionment, redistricting and 
distribution of Federal funds. The preliminary results of the 
test indicate that we cannot meet the same standards of 
measurable quality as the data that we collect in the United 
States.
    Mr. Chairman, I thank you for this opportunity and hope 
this information is informative. I have a full written 
statement that I request be included in the record if it so 
please you.
    Mr. Putnam. It will be, and we appreciate it. And thank you 
very much.
    [The prepared statement of Mr. Kincannon follows:]

    [GRAPHIC] [TIFF OMITTED] T8351.004
    
    [GRAPHIC] [TIFF OMITTED] T8351.005
    
    [GRAPHIC] [TIFF OMITTED] T8351.006
    
    [GRAPHIC] [TIFF OMITTED] T8351.007
    
    Mr. Putnam. For our next witness, we are going to hear Ms. 
Dalton's testimony, and then we will go to Mr. Clay's opening 
statement. Our next witness is Ms. Patricia Dalton, who is 
Director For Strategic Issues at the Government Accountability 
Office. In this position she directs GAO's work related to the 
decennial census and the Census Bureau. She is responsible for 
GAO's work related to government management issues, 
particularly performance management and the Government 
Performance and Results Act, organizational structure and 
design, intergovernmental relations and tools of government.
    Before joining the GAO in 2001, she was the Deputy 
Inspector General for the U.S. Department of Labor for 7 years. 
She received her appointment to the Senior Executive Service in 
1993 from the U.S. Department of the Army, where she served as 
Director of Audit Policy, Planning and Resources of the Army 
Audit Agency. Ms. Dalton is a certified public accountant and 
holds an M.B.A. from U.Mass and a BA from the College of the 
Holy Cross. Welcome to the subcommittee.
    Ms. Dalton. Thank you, Mr. Chairman and members of the 
subcommittee. At the subcommittee's request we have evaluated 
the overseas enumeration test, its design and execution and 
have published two reports on the subject, the latest of which 
is being released this afternoon by the subcommittee. Although 
the complete results of the test will not be available until 
next year when the Census Bureau expects to finalize its 
evaluations, two important findings have already emerged in 
GAO's work.
    First, the 2004 overseas test was an extremely valuable 
exercise in that it revealed the numerous obstacles both in 
logistics and design to counting Americans abroad through the 
decennial census. The tools and resources the Bureau has 
available to enumerate this group, largely for reasons of 
practicality, cannot cost-effectively surmount these obstacles.
    Second, to the extent that better data on overseas 
Americans might be useful for various policymaking and other 
nonapportionment purposes that do not need as much precision, 
such information does not need to be collected as part of the 
decennial census. It will be important for Congress, the Bureau 
and stakeholders to work together to explore the feasibility of 
counting overseas Americans using alternatives to the decennial 
census. The initial results of the overseas census test suggest 
that counting Americans abroad on a global basis would require 
enormous resources and still not yield data that are comparable 
in quality to the stateside count.
    The response to the overseas census test was disappointing, 
and you can see that on the posterboard to your left. The 5,390 
responses that the Bureau received in the three test countries 
was far below what the Bureau planned for when it printed out 
the questionnaires. While the Bureau ordered 520,000 paper 
forms for the three test sites, less than 2,000 forms were 
returned. Approximately 3,000 responses were received by the 
Internet.
    Not surprisingly, as with any operation as complex as the 
overseas enumeration test, various unforeseen problems arose. 
While the Bureau was able to address them, it is doubtful that 
the Bureau would have the ability to do so in 2010 should there 
be a full overseas enumeration. The difficulties included 
grappling with country-specific issues and overseeing the 
contractor responsible for raising public awareness of the 
census at the three test sites.
    The Bureau's long-standing experience in counting the 
Nation's stateside population has shown that specific 
operations and procedures together form the building blocks of 
a successful census, and, again, this is illustrated in one of 
the posterboards to your left. The design of the overseas test, 
a voluntary survey that relies heavily on marketing to secure 
complete counts, lacks these basic building blocks largely 
because they are impractical to perform in other countries. The 
disappointing test results are not surprising. Refining this 
basic design or adding more resources would probably not 
produce substantial better outcomes. Key elements for success 
are absent.
    In addition to the logistical hurdles, there are a series 
of policy and conceptual questions that need to be addressed as 
well. They include who should be counted, what determines 
residency in another country, how should overseas Americans be 
assigned to individual States, how should the population data 
be used.
    Congress will need to decide whether or not to count 
overseas Americans and how the results should be used. These 
decisions in turn will drive the methodology for counting the 
population group. Possibilities include counting Americans via 
a separate survey; administrative records such as passports or 
voter registration forms; records maintained by other 
countries, such as published census records and work permits. 
However, far more extensive research would be needed to 
determine the feasibility of these or other potential 
approaches.
    The report we released today suggests that Congress should 
continue to fund the evaluations of the 2004 test, but 
eliminate funding for any additional tests related to counting 
Americans abroad as part of the decennial census. However, this 
is not to say that overseas citizens should not be counted. 
Such information does not necessarily need to be collected as 
part of the decennial census and could be acquired through a 
separate survey or other means. Our report recommends that the 
Bureau, in consultation with the Congress, would research such 
options.
    Successfully counting the Nation's population is a daunting 
task. As the countdown to the next census approaches the 5-year 
mark, the question of enumerating Americans overseas is just 
one of a number of issues that the Bureau needs to resolve. As 
you know, last year we identified the 2010 census as a major 
management challenge. On behalf of the subcommittee, we will 
continue to assess the Bureau's progress in planning and 
implementing the 2010 census and identifying opportunities to 
increase its cost-effectiveness.
    This concludes my prepared statement. I would be happy to 
answer any questions.
    Mr. Putnam. Thank you very much.
    [The prepared statement of Ms. Dalton follows:]

    [GRAPHIC] [TIFF OMITTED] T8351.008
    
    [GRAPHIC] [TIFF OMITTED] T8351.009
    
    [GRAPHIC] [TIFF OMITTED] T8351.010
    
    [GRAPHIC] [TIFF OMITTED] T8351.011
    
    [GRAPHIC] [TIFF OMITTED] T8351.012
    
    [GRAPHIC] [TIFF OMITTED] T8351.013
    
    [GRAPHIC] [TIFF OMITTED] T8351.014
    
    [GRAPHIC] [TIFF OMITTED] T8351.015
    
    [GRAPHIC] [TIFF OMITTED] T8351.016
    
    [GRAPHIC] [TIFF OMITTED] T8351.017
    
    [GRAPHIC] [TIFF OMITTED] T8351.018
    
    [GRAPHIC] [TIFF OMITTED] T8351.019
    
    [GRAPHIC] [TIFF OMITTED] T8351.020
    
    [GRAPHIC] [TIFF OMITTED] T8351.021
    
    [GRAPHIC] [TIFF OMITTED] T8351.022
    
    [GRAPHIC] [TIFF OMITTED] T8351.023
    
    [GRAPHIC] [TIFF OMITTED] T8351.024
    
    [GRAPHIC] [TIFF OMITTED] T8351.025
    
    Mr. Putnam. At this time I would like to recognize the 
distinguished gentleman from Missouri Mr. Clay for his opening 
statement.
    Mr. Clay. Thank you, Mr. Chairman, and especially for 
calling this hearing.
    A great deal of energy has been expended on the issue of 
counting Americans overseas both by Congress and the Census 
Bureau, and I hope this hearing will move us toward a 
conclusion on this issue. It is clear from the reports that the 
GAO has prepared that they believe that Congress needs to 
provide direction on this issue. At the same time, GAO 
indicates that the Census Bureau has not given Congress much 
useful information for developing that guidance.
    Before we get too far in this discussion of counting 
Americans overseas, I want to raise an issue that has come 
before me. Two groups, one representing Puerto Ricans and one 
representing American Indians, have raised concerns about the 
way in which a member of the Census Information Center Steering 
Committee was forced to resign from the committee after 
publicly disagreeing with a senior Census Bureau official. The 
gentleman dismissed from the committee is a well-respected 
researcher at the Joint Center For Political and Economic 
Studies. For those of you who are not familiar with the Joint 
Center, it is one of Washington's premier think tanks and was 
formed in the 1970's to provide policy analysis for African 
American Congressmen. Both groups have represented this action 
as demonstrating a lack of sensitivity on the part of Census 
Bureau officials toward people of color.
    This has not been a good summer for the Census Bureau. Last 
month it was criticized of trying to bury the bad news about 
the increase in poverty by releasing the numbers in the dead of 
August when everyone was out of town. And it came out only 
because the Electronic Privacy Information Center filed a 
Freedom of Information request that the Census Bureau had 
produced tabulations that showed where Arab Americans live. 
Those tabulations were made from the 2000 census data on 
ancestry. Now we find out that a senior African American 
scholar has been summarily dismissed from a steering committee 
because he openly disagreed with the Census Bureau on the 
measurement of race. I'm not surprised that these groups 
believe that the Census Bureau is insensitive to their 
concerns.
    Today we will hear testimony from GAO and the Census Bureau 
that suggest that we should end the count of Americans 
overseas. We will also hear from the advocates who are 
Americans overseas that the 2004 test was not a very good test, 
and that much more can be done. I hope both the GAO and the 
Census Bureau will address the issues raised by the second 
panel.
    Mr. Chairman, that concludes my statement. If I could go to 
the questions.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]

    [GRAPHIC] [TIFF OMITTED] T8351.026
    
    [GRAPHIC] [TIFF OMITTED] T8351.027
    
    Mr. Putnam. You are on a roll and recognized for 5 minutes 
for your questions. Before you begin, I would like to recognize 
and note for the record our distinguished gentlelady from New 
York who is joining our subcommittee, Mrs. Maloney.
    Mr. Clay, you are recognized.
    Mr. Clay. Thank you, and I thank the gentlelady from New 
York for being here.
    Mr. Kincannon, maybe you want to address what I said. I 
know it is a personnel issue, but it certainly raises red flags 
for me, and we'll start there.
    Mr. Kincannon. Mr. Clay, I appreciate your consistent and 
long-running support for the activities of the Census Bureau, 
and I'll certainly answer in that context.
    I'm not aware that someone was removed from the panel or 
fired from his job because he disagreed with someone at the 
Census Bureau. I don't think there's any evidence that the 
Census Bureau had any role in that. We have never in my memory 
objected to a body choosing someone to serve on an advisory 
committee where there are bodies represented. And as for people 
disagreeing, if we try to remove all the people on our advisory 
committees that disagreed with us in public, we would have a 
very empty room. Disagreement and dialog about disagreement is 
the nature of those advisory committees.
    I wasn't at that particular meeting, but I'm quite 
confident, as much as I can be of facts in this world, that we 
made no effort to have someone removed on that basis. The only 
thing that makes me try to remove a member of an advisory 
committee is that they don't come to the meetings. If they 
don't come to the meetings, they are not adding anything to our 
knowledge.
    Mr. Clay. I appreciate your response, and perhaps we can 
get the two parties together and figure out what actually 
happened, and I thank you for that response.
    Mr. Kincannon, I can understand the drive to include 
military personnel serving overseas in the census particularly 
at times like this when men and women are dying every day in 
service to their country. And it is more difficult to 
understand the drive to include civilian personnel serving 
overseas. The military overseas are not there by choice, 
particularly in war zones. Many of the civilian jobs overseas, 
however, are actually plums. Your job in Paris is one example 
where I doubt they have ever had to force someone to take that 
job. Has the Census Bureau ever considered counting only the 
military personnel overseas and State Department employees 
serving at our embassies overseas?
    Mr. Kincannon. I'm sure the Census Bureau would follow the 
direction of Congress on that particular matter.
    Let me say even though I enjoyed very much being in Paris, 
and I never regarded it as a plum assignment, and my wife 
enjoyed it very much indeed because she was able to enjoy Paris 
and life there, but I'll tell you the fact of the matter is I 
would not have been included or was not included in the census 
because I wasn't an employee of the U.S. Government. I was 
counted in the French census.
    My experience was that it was very difficult to recruit 
Americans to posts even though you enjoyed many privileges, 
with high-ranking staff being accorded diplomatic status, the 
pay being considerably higher than Civil Service pay, even at 
the highest levels, even for political appointees. So yes, I 
would think it was very attractive.
    It was difficult for Americans to come out of concern for 
language and out of concern for integration of their family, 
particularly for professional-level people who would fill jobs 
in an organization like the OECD. Often both members of the 
family, the husband as well as the wife, are employed outside 
the home in well-paying professional jobs, and when they move 
from the United States to France, they were not eligible 
automatically for employment. Unless you were a citizen of an 
EU member country, you're not automatically eligible to work 
there. Yet it is possible to find jobs, but it is a barrier. 
But if you teach school, that may be a particular problem. If 
you have children that are already partly along in school and 
not at the beginning of their school life, then they are going 
to face enormous barriers and have extensive dislocation in 
their life. I was not successful in recruiting a single 
professional-level staff member to join my staff from the 
United States in the 8 years that I tried to do so.
    Mr. Clay. I can probably recommend you a few staffers that 
I know around here that would love to take the position.
    But what about counting the overseas employees, Federal 
employees, that work in the embassy and the military? Have you 
considered that?
    Mr. Kincannon. It would be feasible to do, and if that is 
the opinion that the Congress had, I'm sure that we could make 
that distinction, because that count is based on administrative 
records.
    Mr. Clay. All those employees at the military and embassy, 
I mean, there are pretty low numbers.
    Mr. Kincannon. Pretty low numbers, and I'm not sure all of 
the military responded in the census. That will be part of our 
evaluation.
    Mr. Clay. Thank you.
    Mr. Putnam. We have a vote pending, and we are going to 
continue on with questions. The round of votes we have, it will 
take approximately an hour. I apologize to you in advance for 
that.
    Both of you mentioned in your testimony that in the past 
there have been past efforts by the Census Bureau to count 
Americans abroad. What lessons were learned from those attempts 
that were applied to this test? Ms. Dalton or Mr. Kincannon.
    Mr. Kincannon. Mr. Chairman, I think the basic lesson from 
past experience in counting American servicemembers and 
civilian government employees stationed overseas is that if you 
have complete administrative records, it's not a difficult task 
to count people. We counted them. I'm sure those numbers are 
pretty close to accurate, and they do not have the 
characteristics data that would be associated with a 
conventional census, but I'm sure in total number they are 
fairly complete.
    Mr. Putnam. You have heard GAO's recommendation which was 
it was the test was not successful. What then is the conclusion 
or the action on the part of the Census Bureau? Will all 
efforts to beyond evaluating these results end? Have we closed 
the book on enumerating Americans abroad?
    Mr. Kincannon. It would be difficult for me to argue 
strongly that this test was a success, but, in fact, we 
succeeded in learning quite a bit about difficulties, including 
the different cultural and legal situations in other countries. 
That also would make it difficult to do a worldwide effort. On 
the other hand, the fact that so few people responded was much 
below our expectation. If you look at the example of France, 
the lowest estimate that we have for the number of American 
citizens living in France is over 29,000, and that is an 
underestimate because that excludes any American who has dual 
citizenship, and there are quite a number that have dual 
citizenship. If you look at the 2,000responses in France, 
assume that the household size is the same as stateside and 
multiply by 2.4, you come up with under 5,000 or less than 1 in 
6 of the smallest and known to be understated estimates of 
Americans in France. That is not anywhere close, and so it is 
not encouraging to proceed.
    As to further activities, we at present do not have the 
prospect of appropriated funds to continue this work, so we 
don't have anything else planned.
    Ms. Dalton. I would add that in 1960 and 1970, the Census 
Bureau did attempt to enumerate private citizens, that were 
overseas, and similarly they had serious difficulties in 
response to the response rate. So this is a continuing pattern.
    Mr. Putnam. What other data bases exist, Ms. Dalton, that 
suggest to us that a more accurate number of citizens abroad in 
terms of the number of private IRS filings from overseas or 
absentee voters from overseas--what other information or data 
bases are out there that would give us some clue?
    Ms. Dalton. There are a lot of data bases. However, the 
reliability of the information is really unknown. There is 
information that the State Department has in terms of 
passports, registration at embassies. We have voter records, 
though that is of questionable reliability; tax records to some 
extent, as you mentioned; Social Security files are also a 
possibility. But, none of these have really been seriously 
evaluated for their use or how they could be improved to use as 
part of the census or a count of some form.
    Mr. Putnam. When you did your interviews at the test sites, 
did you get any hint of why the response rate was so low?
    Ms. Dalton. Not specifically, other than that some people 
just did not want to be counted. When you look at what happened 
stateside in the 2000 census, the response rate was--I think 
after all of the followup that was done by the Census Bureau, 
it was only 72 percent. So I think we're seeing similar 
patterns overseas. Plus you have the issue of were people aware 
that the test was being conducted.
    Mr. Putnam. And how many countries, because of State 
Department warnings and security issues, would it be virtually 
impossible for us to have people on the ground conducting these 
enumerations if we were to proceed with it?
    Ms. Dalton. I don't know the number. I know at any given 
time the State Department has numerous countries under warnings 
of various types, but I don't have an accurate count of that.
    Mr. Putnam. In France you had an unusually low response. 
There were privacy laws that were part of the challenge you 
faced in this test. I assume that there would be a number of 
other countries where we could expect those same problems. Is 
that what you found, Ms. Dalton?
    Ms. Dalton. Yes, it is. In the three test sites, the Census 
Bureau encountered problems of various natures. You point out 
the issue of France and the privacy laws. In Mexico there were 
issues with the mail system. In Kuwait there were issues of 
trying to deliver the census forms to the appropriate parties, 
and the embassy had to take custody of the forms and then move 
them.
    What I think you pointed out is that each country would in 
all likelihood be unique, so we wouldn't be running one census, 
but we would be running 100 censuses in dealing with those 
countries' specific issues.
    Mr. Putnam. And just to refresh--let me go back to the 
basic language in the Constitution. Do we have any guidance 
from a constitutional scholar on what the language, actual 
enumeration of the population, what that means as it relates to 
overseas counting?
    Mr. Kincannon. I'm not aware that there is any 
determination that says there is a prohibition against counting 
Americans overseas, and the counting of servicemen and Federal 
civilian employees overseas has been reviewed and upheld by the 
Supreme Court. But I'm not going to give a legal opinion. 
That's not my preparation. That's my understanding.
    Mr. Putnam. Knowing the Court's direction and the legal 
interpretation of what efforts you must make to make an actual 
enumeration stateside, would that same equal protection 
requirement exist overseas where, if we are going to make this 
effort to count overseas, if we were to pursue it, it would not 
be enough just to count the ones that are easy to count? We 
would have presumably to put the same types of efforts and 
resources on the ground overseas as stateside to be in 
compliance with the interpretation? I'm asking you. I don't 
know that.
    Mr. Kincannon. Mr. Chairman, I think it depends on the 
purpose for which were the data collected and the way they were 
used. If they were used for descriptive information, then you 
don't create rights for certain people that way, it seems to 
me. If it could be used for apportionment or redistricting or 
fund allocation, then you are beginning to create rights, and 
that might be a concern.
    Mr. Putnam. My time has expired. We have 6 minutes 
remaining before the vote, so the committee will stand in 
recess, and we will be back. But please drink all the orange 
juice you can, and we will be back in approximately 1 hour.
    The subcommittee will reconvene. I apologize for the delay 
with votes. I am informed we have another round of votes 
shortly. So I would ask the ranking member if he has any 
additional questions for the first panel. He has indicated he 
does not. We will defer to the written record.
    We want to be sure and get to the second panel. So we will 
dismiss panel one and seat panel two. We will stand in recess 
momentarily until we can get panel two seated.
    [Brief recess.]
    Mr. Putnam. The subcommittee will reconvene. I would like 
to ask panel two to rise and raise your right hands for the 
administering of the oath.
    [Witnesses sworn.]
    Mr. Putnam. Note for the record that all witnesses 
responded in the affirmative.
    We will move directly to testimony, beginning with Mr. 
Leigh Gribble. Mr. Gribble is the managing director at New 
Bridges Strategies in Kuwait. Prior to joining, he founded and 
managed Blackthorn Rhino, a firm dedicated to providing 
technical consulting liaison and management services to 
multinational companies pursuing business opportunities in the 
defense, industrial, financial and commercial sectors in the 
Middle East. He has resided in Kuwait since 1992, and has been 
working in Iraq over the past year. Welcome to the 
subcommittee, sir. You are recognized for 5 minutes.

  STATEMENTS OF LEIGH GRIBBLE, VICE CHAIR, AMERICAN BUSINESS 
    COUNCIL OF THE GULF COUNTRIES, ON BEHALF OF CENSUS 2010 
 COALITION; LUCY STENSLAND LAEDERICH, U.S. LIAISON, FEDERATION 
 OF AMERICAN WOMEN'S CLUB OVERSEAS, INC.; AND CLARK H. BENSEN, 
             CONSULTANT AND PUBLISHER, POLIDATA CO.

    Mr. Gribble. Thank you very much. Good afternoon, 
distinguished chairman and committee members. I may go over 5 
minutes, but I would ask your indulgence, because I left my 
plum job in Baghdad and drove 8 hours last week and it took 
about 23 hours to fly over here. So if I go a couple of minutes 
over, I would beg your indulgence.
    Mr. Putnam. Fair enough.
    Mr. Gribble. Again, as noted, I am a retired naval officer 
and the owner of a consulting firm that is incorporated in the 
State of Florida. I have lived in Kuwait in connection with my 
military service and my consulting business for over 12 years. 
However, I pay taxes and vote in Florida's 7th Congressional 
District, which is where my company is registered and where I 
hope to return to live full time within the next few years.
    Among the various civic activities I am involved in 
overseas and within the United States, I serve as the vice 
chairman of the American Business Council of the Gulf 
Countries, and am on the executive committees of the American 
Business Council of Kuwait, and the American Chamber of 
Commerce of Iraq.
    Additionally, I am honored to represent overseas American 
citizens for the Census 2010 Coalition on the Secretary of 
Commerce's Decennial Census Advisory Committee.
    Today I am testifying on behalf of the Census 2010 
Coalition, a coalition which represents diverse interests of 
such overseas American citizens groups as the 98 U.S. Chamber 
of Commerce-affiliated American chambers abroad; the 
Association of American Citizens Abroad; the Association of 
American Residents Overseas; Republicans Abroad; and the 
Federation of American Women's Clubs Overseas, FAWCO.
    FAWCO is also represented here today by my dear friend and 
one of the very few reasons I can think of to visit France, 
Lucy Laederich. I am as humbled today as I was in June 1999 and 
July 2001, when I was privileged to appear before this august 
subcommittee to give voice to the concerns of thousands of my 
fellow private American citizens around the world.
    Rather than take up your valuable time rereading points 
that I made in those two previous appearances, I would 
respectfully request, Mr. Chairman, that you accept my 
testimony from June 9, 1999, and the July 26, 2001 hearings, as 
attached to my written testimony today, for inclusion in the 
record of this hearing.
    Lucy Laederich of FAWCO has allowed me to review her 
upcoming testimony and her presentation of lessons learned in 
the 2004 overseas census test. It is quite extensive and 
accurately reflects what I saw in Kuwait during the conduct of 
the test. So with your indulgence, I will not spend a lot of 
time discussing lessons learned today except to emphasize two 
important points:
    First, we all know that extensive media outreach is crucial 
to conducting a successful census. We also know that media 
campaigns are extremely expensive in the United States. This is 
because there are literally thousands and thousands of print 
and broadcast media outlets for U.S. residents to choose from. 
In the United States, the Census Bureau has to spend large 
amounts of money to cover the broadest possible spectrum of 
media to reach the maximum number of individuals in cities, 
towns, and rural areas where people may have access to 5 
newspapers, 20 radio stations and hundreds of TV channels to 
read or tune into.
    Overseas American citizens do not have so much choices of 
what to read, listen to, or watch in the English language 
media. But, they generally have access and pay attention, 
regular attention, to five almost global outlets and media 
streams. These worldwide outlets and streams are the 
International Herald Tribune, the Voice of America, and the 
U.S.-based international news channels, CNN, Fox News and 
MSNBC.
    Media buys in just these five outlets and streams should 
reach the vast majority of American citizens around the world, 
and would not break the Census Bureau's advertising budget. The 
Census Bureau did not advertise in those outlets or streams 
during the 2004 test census, except for a very limited ad buy 
in the International Herald Tribune in France and Mexico toward 
the end of the test period. Any overseas census is bound to see 
low response rates if it is not well advertised.
    Second, mandatory participation in the U.S. census is 
required by statute for all U.S. residents. Obviously the force 
of law is used to compel participation in the census and 
thereby increase response rates. What would U.S. response rates 
be if the threat of a penalty for nonparticipation was not a 
factor to be considered by potential respondents? I daresay it 
would drop off steeply.
    There was obviously no such penalty provision hanging over 
the American citizens in the three test countries. Many here in 
Washington scoff at the idea of making participation in an 
overseas census mandatory. They say it would be an 
unenforceable requirement, yet the IRS requires overseas 
American citizens to file U.S. income tax returns and pay 
required taxes, again under penalty of law. Human nature being 
what it is, even the slight possibility of running afoul of the 
Federal Government would be a prime motivator for many overseas 
American citizens to complete census forms and would raise 
response rates. Any overseas census should require mandatory 
participation, just as the U.S. census does.
    I would like to now offer some thoughts on why the utmost 
effort should be made to bring the census process into the 21st 
century and why it is mortally imperative that Congress act to 
include overseas American citizens in the census.
    When I started drafting this testimony, I was in the middle 
of a month of travel that included business meetings and events 
in Kuwait, Bahrain, Kurdistan, and Northern Iraq and Baghdad. 
On the first of September, the U.S. Ambassador to Iraq, John 
Negraponte, and I had the privilege of addressing the inaugural 
reception to the American Chamber of Commerce in Iraq in 
Baghdad. It was a diverse gathering of more than 80 American 
business people, ranging from individual lawyers and 
consultants to representatives of major contractors involved in 
reconstruction and consumer products companies. Our remarks 
that evening were punctuated by the sounds of nearby mortar 
fire, but the noisy explosions did not drown out the 
conversations or dampen the spirit of the American business 
community in Iraq as it gathered to celebrate the founding of 
the newest U.S. Chamber of Commerce overseas, and the fact that 
we were entering and building yet another market for American 
goods and services in the global economy.
    I certainly never imagined when I was growing up that I 
would find myself in such a place in Baghdad at such a historic 
time, nor do I suppose the founders of our country ever 
imagined that American voters would be living overseas in 
significant numbers when the Census Act of 1790 was passed and 
laid down the foundation for one of the principal, if not 
primary purposes of conducting the census, the determination of 
the voting population of each State.
    In fact, it was not even until the mid-1970's that American 
citizens resident overseas were even allowed to vote by 
absentee methods. If the census is to be successfully conducted 
and true to its primary mission of determining the voting 
population of each State, then it must take into account the 
21st century realities of an America that has a global economy 
and a substantial population resident overseas, whose votes are 
recorded in every State of the Union.
    The census should no longer be conducting their Rules of 
Usual Residence that were devised and appropriate in the 
1700's. The Rules of Usual Residence must be updated to reflect 
the existence of a global American population that votes while 
far away from home.
    Equal protection is not just a good idea, it is the law and 
it is constitutionally mandated by the 14th amendment. Equal 
protection under the law means that all American citizens and 
residents enjoy the same rights and privileges. Simply, the 
government is not allowed to offer rights and privileges to 
some citizens and residents and deny these same rights and 
privileges to others, yet by not including private American 
citizens resident overseas, the Federal Government does just 
that. The Census Bureau does count overseas federally 
affiliated Americans and U.S. military personnel in the census, 
but they do not count me and equal protection is denied. Even 
though I pay Federal income tax, those portions of the Federal 
budget that are allocated to Florida and my home place of 
Ormond Beach based on census population data do not include 
money that should rightfully be expended there on my behalf, 
because do I not exist, according to the census, and equal 
protection is denied.
    The strength of my vote is diminished because the census 
does not count me, and so the current system fails to include 
and apportion me in and to the voting population of the State 
of Florida and its 7th Congressional District, and again equal 
protection is denied.
    Many argue that if American citizens resident overseas are 
counted in the census and the resulting data is used for the 
purposes of apportionment and redistricting, that biases will 
be introduced that may cause perturbations in the current 
apportionment and redistricting processes and unfair advantages 
to some States or districts. But with judicious modification of 
the Rules of Usual Residence and acceptable statistical 
remedies, this should be avoidable. Equal protection under the 
law must be enforced for all American citizens, including those 
residing overseas, by counting them in the census.
    Now, to the question of cost effectiveness of counting 
American citizens resident overseas in the census, is it 
necessary and cost-effective to break down the population of 
the individual States into 14 separate racial and ethnic 
categories and then tabulate and analyze reams of data about 
these categories? Certainly it is not under the original Census 
Act of 1790. But Congress has been sage enough over the years 
to mandate the modifications to the census process to reflect 
the changes and requirementsin and of a constantly evolving 
American population. Now that the American population includes 
an uncounted but significant number of citizens resident 
overseas, the census process needs modification again to 
properly reflect this.
    The GAO concludes in their review of the 2004 overseas 
census test that it would not be cost effective to count 
Americans resident overseas in the census. As best I can tell 
from the report, this conclusion is based in very large measure 
upon an overseas census test response rate that is perceived as 
low. This response rate appears to be solely based on comparing 
the number of forms printed before the test for the Census 
Bureau and the actual number of responses received--520,000 
versus about 3,700. If they printed 6,000 forms, would 3,700 
look like a good number? I may be mistaken, but I believe that 
the number of forms printed reflected the Census Bureau's best 
estimate of how many printed forms might be needed to conduct 
the test, and was certainly not intended to be used as a 
measurable response.
    Comparing a pretest number of required forms to the actual 
responses received by printed form Internet input hardly seems 
to be statistically significant or cost effective itself. We 
all understand that there are huge obstacles to be overcome in 
order to count American citizens resident overseas in the 
census and then to put that resulting data to fair and 
meaningful use. But Congress should not allow the debate over 
whether to do so to continue to focus on the logistical and the 
statistical; rather, the focus should be on deciding whether it 
is moral and right to continue to deny equal protection under 
the law to American citizens resident overseas.
    I have to believe that the answer to that question is no. I 
also believe that Congress can come up with the necessary 
statutory changes, funding, and mandates to the Census Bureau 
to rectify this injustice, and I urge you to do so.
    Mr. Putnam. Thank you very much, Mr. Gribble.
    [The prepared statement of Mr. Gribble follows:]

    [GRAPHIC] [TIFF OMITTED] T8351.028
    
    [GRAPHIC] [TIFF OMITTED] T8351.029
    
    [GRAPHIC] [TIFF OMITTED] T8351.030
    
    [GRAPHIC] [TIFF OMITTED] T8351.031
    
    Mr. Putnam. I will let all of you know that we are 
expecting votes again at 4 or somewhere thereabouts. So I would 
ask all of you--and I appreciate the distances that you have 
traveled--but I would ask you to summarize your written 
remarks, knowing that your full text will be in the record.
    Our next witness is Ms. Lucy Stensland Laederich. She is 
the U.S. liaison for the Federation of American Women's Clubs 
Overseas, a nonpartisan network which comprises 72 independent 
organizations in 33 countries around the world. FAWCO has been 
actively involved in advocating the inclusion in the U.S. 
census of private American citizens residing temporarily or 
permanently abroad. Its members, especially, Ms. Laederich, are 
considered invaluable overseas Ambassadors for America.
    Welcome to the subcommittee. You are recognized for 5 
minutes.
    Ms. Laederich. Thank you very much, Mr. Chairman. I am 
extremely honored to have been invited to testify here and to 
address you, even though I am equally daunted to be speaking 
for a population that is equal in size to the 25th State in the 
Union.
    Thank you for saying some things about me. I don't need to 
say those, but I can add to what you said, that I was 
privileged to have a front-row seat to the 2004 census test 
from my home in Paris, where I did not choose to live--but we 
can go into that at another time if you want.
    You have asked me to testify about the lessons learned in 
the 2004 test, but I want to explain why those lessons and the 
recommendations of this committee are so important to those I 
represent.
    My remarks here and in the written record have been 
approved by FAWCO--which you have mentioned, but it is also the 
oldest and largest organization representing private-sector 
Americans abroad--as well as the Association of Americans 
Resident Overseas based in Paris, and American Citizens Abroad 
based in Geneva.
    Alongside the American Business Council of the Gulf 
Countries, we have all devoted a great deal of energy to this 
cause over the past decade. Using only the figures that were 
available to us, which were State Department estimates, we 
produced a map that I believe you have in front of you there, 
which I think very dramatically shows the size and scope of the 
population we are talking about.
    We want to congratulate the Census Bureau for taking on a 
huge challenge. Under two directors, that both Leigh and I have 
had the pleasure of knowing, it has moved this cause forward in 
good faith and to the best of its ability with the resources 
available to it.
    As we heard earlier from you, Mr. Chairman, the 
Constitution mandates a count of every person physically 
present in the United States, legal citizen or not. We know 
that counting U.S. citizens abroad is not constitutionally 
mandated, but in today's global world--and Leigh has said--it 
is as logical as a count of people physically present on 
American soil called for in the 18th century. It is the only 
thing that can provide a picture of the real American 
population in the 21st century, present and active throughout 
the world.
    Our organizations don't all agree on the purposes for which 
statistics should be used, but there is one on which we all do 
agree; that is apportionment. We are not so naive as to believe 
that this will be easy. But we are American enough to believe 
that it is important. Until the statistics used to apportion 
seats include the corresponding overseas population, State 
representation will be skewed, and the House of Representatives 
will not be representative of the real global American 
population.
    We regret the fact that the total number of respondents was 
far below what we hoped, but we remember that the Census Bureau 
did not set out in the 2004 experiment to test for response 
rate or coverage. The aim was to test the questionnaire itself 
and the way in which Americans were reached and encouraged to 
respond.
    My written testimony goes into more detail on both of those 
aspects. But I would like to mention just a couple of things 
with regard to each. For the questionnaire, we know that the 
objective was to make the overseas questionnaire as similar to 
the domestic short form as possible, but we still recommend 
changes to make it more appropriate for the overseas 
population.
    We feel it should be one, mandatory for U.S. citizens, two, 
clearly and obviously protected under Title 13 of the U.S. 
Code. In other words, when I say ``obviously,'' that should be 
obvious to the respondents. It was not. And three, clearly a 
civic action. The Bureau chose a very good slogan: ``easy, 
Important, Confidential.'' ``important'' and ``confidential'' 
need to be made abundantly clear to the respondents.
    As regard to outreach, my written testimony goes 
considerably more into detail there, but we would recommend 
adopting the equivalent of the U.S. system with regional and 
local offices around the world staffed by one person from the 
Census Bureau and one local American familiar with the country 
and its American population; other forms of outreach, like the 
domestic census-in-schools program; paid advertising in a wide 
range of media, not concentrated in one American newspaper; 
congressional funding for U.S. Embassies and consulates abroad, 
by far the best equipped today to help coordinate and 
contribute to an effort like this; and some funding for upline 
planning involving those familiar with the population in 
question, both organizations like ours and consular officials.
    We should remember that in 1781 no one knew yet how to 
count persons physically present in the new United States 
either. Despite procedures refined over time, the domestic 
population still is not fully counted. We do not at all want to 
distract from the domestic effort. On the contrary, we want to 
see them complemented by statistics that would show the global 
reality of the modern America.
    We all realize that if we knew how to count overseas 
Americans, the overseas census test would not be needed. But 
unknown territory and the unknown universe that you mentioned 
yourself, Mr. Chairman, earlier, unknown territory must not 
deter us any more than it deters the child who falls the first 
time he or she tries to walk. One day that child will walk 
right into university.
    Other countries like France count their citizens abroad, 
and the United States can do it too. The time has come as we 
enter the 21st century for a real sea change in mentalities 
about America's place in the world; an understanding that the 
overseas American population is a vital and integral part of 
the global American community.
    Thank you very much, Mr. Chairman.
    Mr. Putnam. Thank you very much.
    [The prepared statement of Ms. Laederich follows:]

    [GRAPHIC] [TIFF OMITTED] T8351.032
    
    [GRAPHIC] [TIFF OMITTED] T8351.033
    
    [GRAPHIC] [TIFF OMITTED] T8351.034
    
    [GRAPHIC] [TIFF OMITTED] T8351.035
    
    Mr. Putnam. Our next witness is Mr. Clark Bensen. Mr. 
Bensen is a consultant and the publisher of Polidata 
Demographic and Political Guide, which produces reference tools 
for demographic and political research. An attorney by training 
and a data analyst by practice, Mr. Bensen has been analyzing 
data related to the art of politics for over 25 years. He has 
been involved in redistricting and census issues throughout the 
past three redistricting cycles, and has developed political 
and census data sets for every State in the Union.
    In addition, on several projects he has been responsible 
for the establishment of a nationwide data base of demographic 
and political information. His participation has included 
service at every level of politics, moving to Washington 
following the 1980 elections.
    Welcome to the subcommittee. And you are recognized for 5 
minutes, sir.
    Mr. Bensen. Thank you, Mr. Chairman. Much of what I had in 
here, of course, will be summarized for two reasons. One is the 
time; and two is that much of what actually I wrote here as 
problems with the test has actually been covered by the GAO 
report. So let me just highlight a few things here that have 
come up and I believe are issues that need to be addressed.
    Again, I basically am a redistricting consultant. And what 
I do is I assist people around the country who actually draw 
the lines in which you Members get the wonderful chance to run 
for office. And one of the paramount concerns that 
redistricting people have is that the data that they are 
provided by the Bureau is in fact the most accurate, the best 
data available that can be gathered. And this means that it is 
gathered from an exhausting and objective physical counting of 
the American public.
    Now, redistricting people are also one of the very few data 
users in the country that actually use the census block level 
data. And I might add that if in fact anything is done with the 
count of overseas Americans, I believe the first important 
distinction is, it should not be used for redistricting, if in 
fact it is used for apportionment. And I say that advisably, 
because I believe the data at the census block level would be 
very suspect with the overseas Americans added in, largely 
because we really don't know what physical address many of them 
have and whether you can verify them, validate them, whatever. 
I just think even considering it for redistricting is beyond 
the pale.
    Now, apportionment at the State level has its own problems, 
one of which is--and I believe, Mr. Chairman, you brought this 
up before about what the Constitution says, and are there 
limitations. I believe the major limitation is actually the 
language of counting people in each State, which goes back to 
the physical residence rule.
    It is fairly clear to say that members of the military and 
Federal employees and their dependents have an enduring tie to 
the United States. Most of them are over there temporarily and 
involuntarily. They will return. There is what we call a 
logical nexus for them. It is much more difficult to say what 
the nexus is for many overseas Americans, although obviously my 
patriots here have a very strong logical nexus to the United 
States. But I believe that is a constitutional problem from the 
standpoint of who gets counted in the overseas count. And I 
shouldn't even say count, because it would obviously be, as the 
GAO person said, hundreds of counts. Each country would have 
its own separate problem. However, I don't think that means you 
have to just say you can't do it. I think it is an open 
constitutional question. But I think the touchstone is again to 
have an annual enumeration and to have the logical nexus.
    Let me summarize another area of problem, which is 
basically again going to how good a job can we make to count 
these people? And this goes to what Mr. Gribble was saying, 
too, about the bias. The bias here is, basically, could be two 
levels. One is from the nation-by-nation count, and two is by 
the State-by-State count. I use as an example in my written 
report about the counting in Mexico versus counting in Canada. 
It may be easier to count in Canada the overseas Americans--
well, probably more people from Canada come from the northern 
States. It may be difficult to count in Mexico, and many 
Americans in Mexico may come from the southern States. So there 
is a bias as to which States you go to, which are the easier to 
count, and then, likewise, in the results as they come back. 
And this bias again goes back to the constitutional problem 
with the census itself, which is the actual numeration. We all 
know that, in fact, there have been millions of Americans that 
have not been counted over time, but the point is the Bureau is 
supposed to count as many people as it can, house by house, 
without any possibility of manipulation.
    Bias is not necessarily intentional manipulation, but it 
could be. That is part of the problem and one of the concerns 
with counting the overseas. I think from the standpoint of 
including them in the census, I just don't know see that is 
going to be a real probability, certainly not by 2010, possibly 
by 2020, I wouldn't rule it out for that.
    But I think one of the biggest problems here from the 
standpoint of 2010 is the Bureau does a very good count at 
counting people. That is their mission, that is why they go 
there to work every day; they want to count people, they want 
to find people, they have an address list, they have a concept 
of how many people there are. They can claim success and give a 
coverage rate and assess the efforts they have done.
    That is not going to be possible with this. And in that 
sense, we are really setting the Bureau up for a failure. And 
as one who actually uses the data from the Bureau very clearly, 
I mean, this to me is a problem.
    So that is one of the problems I see with this. And I 
believe the GAO report goes over the feasibility problems and 
stuff. I think the only logical thing to do is to work on an 
overseas survey over time so we can all assess the degree to 
which overseas Americans exist nation by nation, and then 
possibly for the 2020 census we consider how to implement that. 
Thank you.
    Mr. Putnam. Thank you very much.
    [The prepared statement of Mr. Bensen follows:]

    [GRAPHIC] [TIFF OMITTED] T8351.036
    
    [GRAPHIC] [TIFF OMITTED] T8351.037
    
    [GRAPHIC] [TIFF OMITTED] T8351.038
    
    [GRAPHIC] [TIFF OMITTED] T8351.039
    
    Mr. Putnam. Ms. Laederich, do I read your testimony 
correctly that you have been in France since 1970?
    Ms. Laederich. Yes. That is right.
    Mr. Putnam. So if we were to have an actual enumeration, 
what State would you want to be apportioned to?
    Ms. Laederich. I vote in the State of Connecticut. That is 
my last State of residence. And under the UOCAVA, which covers 
our voting from overseas, I vote there. So I would assume that 
it would be there.
    Mr. Putnam. Is that something of a model that we would 
adopt, that people would get to select what State they wanted 
to be identified with? I mean, what if they choose not to vote, 
or haven't voted in years?
    Ms. Laederich. I would think, with all due respect, that 
would be up to Congress to decide, but that there is a model 
right now, which is the law that governs our voting. So that 
might be the first thing to take into consideration. And once 
Congress had made that decision, I would assume that 
individuals would not be able to decide whether they liked it 
or not.
    Mr. Putnam. Who would be determined to be eligible for the 
count? Would it be everyone who is eligible to be an American 
citizen? In other words, if a British family, on vacation in 
Disney World, and gave birth to a baby, and then went back 
home, and that baby--technically has some citizenship rights--
but would we have an obligation to seek out that person, even 
if they had no interest in exercising their American 
citizenship?
    Mr. Bensen, you are the attorney. Would you like to take a 
crack at that?
    Mr. Bensen. Well, that goes back to what I was saying 
before about the logical nexus aspect of any overseas American. 
I think one of the aspects, an advantage of actually doing a 
survey over time, would be to assess the degree to which every 
person that does respond does have a logical nexus. I would say 
in that case, the person probably does not have any logical 
nexus to the United States, and then that ties into the whole 
voting aspect too.
    There are people who can vote overseas, but voting does not 
necessarily mean they should be counted for the census. And, 
likewise, there are other people in the census that should 
probably be allowed to vote, too. It is a good starting place. 
But I think the key there really is what is the logical nexus. 
What is the tie that binds that person, as a citizen, to the 
United States?
    I read a while ago, a couple of months ago, I guess, some 
of the campaigns were down in Mexico trying to register voters, 
and there was an example of a woman who had not lived in the 
United States for 65 years, but they were going to register her 
to vote. That is another problem, too, because that ties into 
the State laws and how they allow people to vote.
    I believe 10 States do not now have some sort of overseas 
vote, for people to vote in Federal elections, even if they 
have never lived here. And that is part of the problem. Many 
overseas residents, overseas Americans, have never lived in the 
States, any State. And that is a problem from a redistricting 
standpoint again, too. Where do we put this person?
    Mr. Putnam. For our two visitors from afar, I am looking at 
these numbers. There is an estimated million Americans living 
in Mexico; France, over 100,000. Do you attribute this 
abysmally low response rate solely to lack of advertising? What 
factors led to this response rate problem?
    Ms. Laederich. Well, in my written testimony I do mention 
some other things. I am afraid that we don't have time for all 
of that. And Leigh would certainly have other answers.
    I do believe that--I am sorry to say that a certain amount 
of responsibility must fall on the outreach organization that 
was responsible for reaching out, not that they were 
incompetent, by any stroke of the imagination, but that 
decisions were made that could have been made better.
    I think to a great degree one of the big mistakes--how can 
I say this nicely? One of the problems was that people familiar 
with the populations in question were not involved enough. Now, 
the Census Bureau did involve all of our organizations 
tremendously, but perhaps not sufficiently.
    Mr. Putnam. Mr. Gribble, would you like to add anything to 
that?
    Mr. Gribble. I would have to agree with Lucy, that I don't 
think that the outreach by the contractor was as good as it 
could have been. Again, in Kuwait we had no advertising. We had 
a couple of posters that were put up in areas where Americans 
congregated. And I am sure that caused some responses. At the 
end of the day, how many folks in America, if they didn't think 
that somebody was going to come knocking on the door, would 
have answered their response--or made their response? It is 
hard to say.
    But, again you know, as we understood it, this test wasn't 
to measure the response rates. And the numbers on that chart 
are kind of a scientific wild guess as well. We simply don't 
know.
    When Clark talks about the biases that may be coming in, 
assuming that folks in Canada are from the northern States, 
until we start to do this and get into an iterative process of 
refining the data and how the census is done, we are never 
going to know. We assume. We are assuming a lot of things. But 
until we start doing it, we are not going to really get a 
handle on it. Again, we have said it before, nobody expects a 
perfect census the first time around. The census in 1790 was 
not perfect.
    Mr. Putnam. I suspect Mr. Clay and Mrs. Maloney--even I 
would concede that the census in 2000 was imperfect as well. I 
said it before, I believe you said it, Mr. Gribble--that you 
want to be counted for apportionment purposes. That is the 
primary reason. Why do you want to be counted?
    Mr. Gribble. I want to be counted for everything. I want 
equal protection. I pay tax dollars. My tax dollars come to 
Washington, and those tax dollars are allocated out of the 
Federal budget based on population data and do not reflect me 
back in Ormond Beach.
    Now, a lot of my friends overseas are not coming back to 
the States. In the Gulf region, where there are about 55,000 of 
us, the vast majority are coming back and coming back soon. Why 
should I come back to Ormond Beach, having sent all of my tax 
dollars up here, and not have as good a school system as I 
could possibly have? It is not fair. It is not right.
    Mr. Putnam. Ms. Laederich, in your testimony you said that 
the groups disagree on the why. Please elaborate.
    Ms. Laederich. No. Excuse me. I didn't say that we 
disagreed on why. I said that we don't all agree. There is a 
difference. I think that there is a difference, because there 
are some of us who feel now, now we want this, and are working 
toward that. There are others who feel we must try for 
everything right away.
    We don't all agree about the hows and the wherefores. We 
agree about the whys. I think a little bit like Congress, you 
don't necessarily know the answers to things you study. We are 
here today to study. And I think that we would agree that what 
we would like to see is a continuing studying process so that 1 
day we can have all of those wonderful things.
    All I wanted to say was that apportionment seems to me to 
be the absolute bottom line that almost has a constitutional 
basis, because, again, we vote and should be counted here for 
that reason.
    Mr. Putnam. My time has expired. Mr. Clay.
    Mr. Clay. Thank you, Mr. Chairman. Let me start with Mr. 
Bensen, please.
    Mr. Bensen, in his testimony, Mr. Gribble says that 
counting some Americans overseas and not making an effort to 
count all Americans overseas violates the concept of equal 
protection. Do you agree with that assessment?
    Mr. Bensen. Well, first off, I think from a legal 
perspective, when attorneys think of equal protection, they 
think of State action and not Federal action, but that is kind 
of a nicety.
    I think there is a problem with the concept of, in essence, 
a selective enumeration instead of an actual enumeration. And 
that is part of the problem; that if we just count the easy 
ones, it is not going to be fair to the ones where it could be 
harder to count. I mean, why should someone who lives in a 
country that has a harder situation to count not be counted? 
Why should the Bureau not try as much as it can to count that 
person, versus a country where it is very easy to count them?
    Mr. Clay. I couldn't agree more with you. We undercount 
African American males every 10 years with our Census Bureau. 
And they still haven't gotten it right over a 100-year period. 
So I don't know how they would ever get it right for overseas 
Americans.
    Let me ask the other two panelists. Even if the Census 
Bureau were to cut the costs of enumerating Americans overseas 
in half, and they counted the 6 to 10 million people some 
estimate to be the population, the cost would be enormous, 
between $4 and $7 billion. The cost would rival what was spent 
to count the 284 million people in the 2000 census.
    If you were in our shoes, how would you explain to the 
American public the justification for doubling the cost of the 
census? Either one can take a stab.
    Mr. Gribble. I don't know where those numbers come from, 
and I certainly wouldn't try to dispute them. But, again, I do 
not worry about logistics and statistics. I am worried about 
you doing what is right, what is morally right.
    Mr. Clay. You don't worry about the tax dollars we have to 
spend?
    Mr. Gribble. My tax dollars come here and don't go home. I 
don't have as much of a strong tie to my tax dollars right now 
as I would like to have.
    Mr. Clay. OK, Mr. Gribble. How about you?
    Ms. Laederich. I say in my written testimony that it seems 
to me very, very clear that costs would go dramatically down as 
we moved forward. It is obvious that at the beginning of this 
test it is going to cost a lot of money. As more and more 
people respond on line, costs could be cut. As we make better 
and better use of the State Department's registration of 
American citizens abroad, costs will go down.
    The present cost per respondent is not a fair picture of 
what it would be as we move forward.
    Mr. Clay. OK. Thank you for that response.
    Let me go back to Mr. Bensen. You indicate that you 
questioned the constitutionality of including Americans 
overseas in the census. The Census Bureau director seems to 
believe that the Courts have given him the authority to 
continue including them. Can you clarify this disagreement for 
us?
    Mr. Bensen. Yes. In fact, that was one of the few things 
that I did disagree with in the GAO report where basically they 
said that the Census Bureau has broad discretion to count these 
people.
    Rephrasing that to say the Census Bureau does have wide 
discretion to count them, once it is clear that they can count 
them, is very correct. The Secretary of Commerce and the Bureau 
have wide discretion once they are doing something that is 
constitutionally sound.
    I don't think the question of constitutionality really 
refers so much to the military overseas, as long as they are 
actually counted in something that is close to annual 
enumeration, because, as I said, they have a very clear nexus, 
they are in each State from the standpoint of the principal 
residences rules.
    The problem really goes back to the other overseas 
Americans where the question is really, what is their nexus, 
and can you in fact include them? I think from my personal 
perspective, I think it is clear you can include some of them. 
It is really just a question of where you draw the line, which 
goes back to the residency rules.
    Mr. Clay. It also makes it very difficult to determine, 
like the chairman brought up, the fact that the one woman had 
not been in this country for 65 years. Where you would you 
determine their residency to be here?
    Mr. Bensen. Well, I think that is pretty much the crux of 
the problem. It is difficult enough to get the forms. Once you 
get the forms, then you have to figure out where they are 
supposed to go. Then you have to figure out what their actual 
connection is. Those are all things that the Bureau is not 
geared up to do, doesn't have the tools for it.
    And going back to your previous question about the cost, it 
is really a substantial problem from my perspective, because as 
we all know, counting the census stateside is an enormous 
problem. Anything that distracts the Bureau from doing that I 
think is just going to be a problem. And this from a 
practitioner standpoint, if we were in fact to add 4 million 
people, let's just use that a number, we added them to the 
apportionment formula now State by State, the odds are not very 
great it is going to change more than a couple of seats in the 
whole thing.
    So the point is, if you want to say to your constituents 
that, yes, we did spend these billions of dollars and it did in 
fact shift one, two, or three seats from Iowa to Florida, or 
something like that, OK, but the net effect is not likely to be 
very huge, because in fact it takes so many extra people to 
shift over a seat.
    Mr. Clay. Thank you for that response. Thank you, Mr. 
Chairman.
    Mr. Putnam. Thank you. Since we have no one else on our 
side, I recognize Mrs. Maloney for 5 minutes.
    Mrs. Maloney. Thank you very much, Mr. Chairman. And first 
I would like to request permission to place my opening 
statement in the record. And I regret I was not able to get 
back--I had a conflict--to question Ms. Dalton and Mr. 
Kincannon, and I would like to place and have the committee 
send them my questions and have them respond in writing, if you 
could; because I think this is a very important issue, 
particularly as we are in a global economy, and over and over 
again we are dispatching Americans abroad.
    I think it is absolutely fundamental that our men and women 
in the military who are protecting us abroad have the right to 
vote, have the right to be counted, and have all of the 
protections. The same for our Federal employees. And I would 
say it is the same for American business that is now involved 
the global economy.
    They tell us over and over that you can't go backward. We 
are in a global economy. We must be part of that global 
economy. You visit the State Department and they talk about 
economic strategies to make sure that our businesses are able 
to compete and win in the world economy, and that we have to 
work toward counting our Americans citizens. That is part of 
our Constitution. It is one of the first directives that they 
give in the Constitution, is that we will have a census every 
10 years. And what I don't understand is this throwing our 
hands up in the air and saying we don't know how to do it and 
we are going to give up. And we still have another 6 more years 
that we can work on this.
    So I disagree very much with the GAO report. I accept it. 
But I feel that is not the American way. We go forward and try 
to figure it out. Do we have all of the answers? No, we don't. 
And we have to be fair and we have to be balanced. And it has 
to be accurate and not have any room for any type of 
manipulation.
    But it is not fair to the American citizens, some of whom 
are our best Ambassadors for our country as they live in other 
countries. And I feel that we should make every effort to count 
them. And I feel that we should go forward.
    And my question is really to the two representatives of the 
American Business Council and the Federation of American 
Women's Clubs: Why can't we go forward with the 2006 test? Have 
we gotten our census in our own country completely right? No. 
We work every year to make it better. And the professionals 
dedicate their time to making it better.
    We should begin to count Americans abroad. And I am getting 
tired of this. We had one director who was committed to it, 
then we had the second director who was committed to it. 
Everybody says they want to do it. Everybody says it is the 
fair thing to do. And then they say, We can't do it. And I just 
don't understand that. I don't see why we cannot go forward 
with the 2006 test.
    So I would like to ask Ms. Lucy Stensland Laederich, and 
then Mr. Leigh Gribble, why we can't go forward with the 2006 
test and your comments on it.
    Ms. Laederich. Mrs. Maloney, I think that we both think we 
can if Congress will make it possible. We certainly hope we 
can. That is why we came here from Kuwait and from France. And 
as I think you know, we have been working on it for a long 
time. We certainly hope that it will be possible to go with the 
2006 test.
    Mr. Gribble. I really don't have anything to add to that. I 
couldn't agree with you more.
    Mrs. Maloney. Mr. Bensen, why can't we go on with the 2006 
test?
    Mr. Bensen. I think I covered a lot of that initially in my 
responses, which is I just don't think it's an attainable goal 
within the concept of the 2010 census, given the requirements. 
I'm not against doing continued research. And I can tell you 
that the 2006 test and the 2004 size and scope--obviously, 
other things would be considered, but I don't think it's 
possible to do that in time for the 2010 census, given the 
inherent problems with running census counts or summaries for 
100 plus nations.
    Mrs. Maloney. If we don't start going forward, we won't be 
there for the 2010 and we won't be there for the 2020. I would 
suggest--and I have been a strong advocate for the funding for 
the census. I'm down on the floor fighting to make sure they 
get their funding, because I believe the research that they 
conduct is an incredibly important to conduct policy. We can't 
make policy if we don't know how many poor we have, how many 
well we have, how well educated are people.
    It is the blueprint of our Nation. As we move into a global 
economy, we are in it whether we like it or not. We have to 
make an effort to understand where our citizens are, how many 
businesses are abroad, employing how many Americans. And they 
are citizens, they are paying taxes, and they have every right 
to be counted as any other American.
    I would suggest we have to go forward. Possibly what we 
find is we cannot use it in the 2010 census. But the fact 
remains that we are not going to be ready for the 2020 census 
if we don't go forward, make mistakes and try to tackle this 
difficult task. I feel it is not responsible if we do not fund 
and go forward. Maybe we find the problems, but how do you 
correct the problems if you don't go forward and find them? So 
I strongly feel that we should go forward with the test and see 
where it is.
    Maybe it is that we cannot decide the fundamental question 
that you are concerned about in reapportionment, but maybe we 
can address some of the concerns about where do we find out 
citizens, what are they doing, how are they involved in other 
countries. It just finding who they are and how many they are. 
This is just a guess that it is 4 million. I bet it is a lot 
more than that. But we have to have a sense of who they are.
    We are in a global economy. The trend is going to be more 
and more and more Americans are going to be living abroad.
    I want to share with Mr. Putnam--I know we have to go 
vote--but every time I lift up a business directory of 
businesses in the district that I represent, they are all in 
the global economy, every single one of them. All of them have 
stations abroad and are growing abroad, and I think that the 
only responsible thing is to do the impossible task. I mean, 
this is America. We put people on the moon. We can't count 
people abroad. I can't understand that. I feel there is the 
lack of the political will to do this, and we cannot run away 
from this responsibility--and we are going to miss a vote.
    Mr. Putnam. I apologize. We have less than 6 minutes.
    Mrs. Maloney. Send it to my office.
    Mr. Putnam. I want to thank you particularly for traveling 
the distance that you have come and the passion that you bring 
to this. Your testimony sheds light on a very important issue 
that we are obviously continuing to try to resolve, and we 
appreciate your willingness to be with us. We collectively 
believe in a solid 2010 census and recognize the challenge of 
counting citizens around the world. Today, we have heard the 
obstacles but want to continue the dialog to address this 
issue.
    In the event there may be additional questions, the record 
will remain open for 2 weeks for submitted questions and 
answers.
    Thank you all very much. This subcommittee is adjourned.
    [Whereupon, at 4:25 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
